No. 20-402
IN THE SUPREME COURT OF THE UNITED STATES
_________________
CHAD AND TONYA RICHARDSON, INDIVIDUALLY AND AS
PARENTS AND NEXT FRIENDS OF L, PETITIONERS
v.
OMAHA SCHOOL DISTRICT
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES AS AMICUS CURIAE, via e-mail and first-class
mail, postage prepaid, this 25th day of May 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 5,995 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
May 25, 2021
Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
May 25, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-0402
CHAD RICHARDSON, ET US,
OMAHA SCHOOL DISTRICT

SHAY DVORETZKY
SKADDEN, ARPS, SLATE, MEAGHER & FLOM
LLP
1440 NEW YORK AVE., N.W.
WASHINGTON, DC 20005
202-371-7370
SHAY. DVORETZKY@SKADDEN.COM
THEANE EVANGELIS KAPUR
GIBSON, DUNN AND CRUTCHER, LLP
333 SOUTH N GRAND AVE.
48TH FLOOR
LOS ANGELIS, CA 90071
213-229-7726
TEVANGELIS@GIBSONDUNN.COM

